                                             n
                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL .
                                                          OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

   Case Number: AlOO80065                                                                          Page 1 of 1




                      NSF OIG received an allegation of intellectual theft/authorship.' The allegation claimed the
              subjecr failed to ensure that the subject's graduate assistant was listed as an author on several
              publications. The subject's institution3 conducted its own investigation into the matter and found no
              evidence that the graduate assistant Was inappropriately denied authorship on the publications. NSF
              OIG independently concluded that no research mis(tOnductocCurred. Accordingly, this case is closed
              with no funher actiori taken.




          I
          2
          3




NSF OIG Fonn 2 (11/02)
